No.
In The
Supreme Court of the United States
WILLIAM JAMES and TERRI TUCKER,
Petitioner(s)
v.
BARBARA HUNT, HARPO,
LIONSGATE ENTERTAINMENT.
OPRAH WINFREY, OPRAH WINFREY
NETWORK (OWN), TYLER PERRY,
TYLER PERRY COMPANY, TYLER
PERRY STUDIOS, LLC. and CHIEF
JUDGE THOMAS W. THRASH, JR.,
Respondent(s)
On Petition for Writ of Certiorari to the
U.S. Eleventh Circuit Court of Appeals
JOINT PETITION FOR WRIT OF
CERTIORARI CERTIFICATE OF
COMPLIANCE
WILLIAM JAMES
ProSe Petitioner of Record
14920 S. Ashland
Harvey, II 60426
Phone: 773-990-9373
TERRI TUCKER
ProSe Petitioner of Record
1136 Joslin Path
Douglasville, Ga 30134
Phone: 678-822-4593

CERTIFICATE OF COMPLIANCE
WITH PAGRE AND WEIGHT TYPEVOLUME LIMIT TYPEFACE
REQUIREMENTS. AND TYPE
STYLE REQUIREMENTS
1. Type-Volume this document is within
the word count limit 9,000 words for
Writ of Certiorari per U.S. Supreme
Court Rule 14, 33.1(a), (c), (g), (i), Writ
of Certiorari on paper that is 6 1/8 by 9
1/4 and not less than 601bs. The petition
cover color is white at 651bs. the
petition is typeset at in Century
Schoolbook at 12-point for the body and
not less than 10-point for the footnotes
and not less than 2-point spacing
between words. The text of the petition
and the appendix is on both sides. The
parts of the documents that are
exempted are not included in the word
count but in compliance such as the
header parts of the document exempted
by Rule 14, 33.1 for petitioners William
James and Terri Tucker in this Writ of
Certiorari is 8,439 words.
2. Typeface and type-style century
schoolbook, document complies with
the typeface font size 12-points, and
footer 10-points requirements of U.S.
Supreme Court Rule .33.1(g)(i).
3. This is our joint declaration that this
document is executed within the United
II

States, its territories, possessions, or
commonwealths: “We declare (or certify,
verify, state) under the penalty of
perjury in accordance with 28 U.S.C. §
1746, that the foregoing is true and
correct.
Executed on Sep. 18, 2019.
William James
PRIVATE ATTORNEY GENERAL
3058 Fresno Lane
Homewood, Illinois 60426
Email: BJ255758@yahoo.com
Phone 773-990-9373
Terri V. Tucker (aka)
Donald-Strickland
PRIVATE ATTORNEY GENERAL
1136 Joslin Path
Douglasville, GA 30134
Email: terrilowe43@gmail.com
Phone: 678-822-4593
THE CLERK OF THE COURT:
TO U.S. Supreme Court of the United
States - CLERK OF THE COURT
1 First St. NE,
Washington, DC 20543
To: PRYOR CASHMAN, LLP
TOM FERBER
7 Times Square
New York, NY 10036-6569
Phone: 212-421-4100
III

TO: NOEL FRANCISCO
Solicitor General
Department of Justice (DOJ)
950 Pennsylvania N.E. Room 5616
Washington, D.C. 20530
Phone: 202-514-2203
THE U.S. HOUSE COMMITTEE ON
THE JUDICIARY
Antitrust Department
2138 Rayburn House Office Building
Washington, D.C. 20515
Phone: 202-225-3951
This is our declaration that the proof
of service pursuant to Rule 33.1 for
Petitioners Petition of Writ of Certiorari
certificate of compliance is executed
within the United States, its territories,
possessions, or commonwealths:
‘We declare (or certify, verify or state)
under penalty of perjury that the foregoing
is true and
correct.
Executed on Sep. 18, 2019.
Signature of Petitioners

William James
PRIVATE ATTORNEY GENERAL
14920 S. Ashland
Harvey, Illinois 60426
Email: BJ255758@yahoo.com
Phone 773-990-9373
IV

Terri V. Tucker (aka)
Donald-Strickland
PRIVATE ATTORNEY GENERAL
1136 Joslin Path
Douglasville, GA 30134
Email: terrilowe43@gmail.com
Phone: 678-822-4593
Date:
Seal:
„ ,—

^1 vo /

=

EXPIRES

\jj 1

Notary NaA^S3igi&£/

Notary Signature

V

